20-7975M-*,r

a

No.

ORIGINAL
Supreme Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATES

DEC 1 7 2020
OFFICE OF THE CLERK

Larry Welenc, Petitioner
v
Slate uf Florida, Respondent

Vb

D?PT

qF

7

•/
/a,i /

f&i
ON PETITION FOR WRIT OF CERTIORARI
TO UNITED STATES DISTRICT COURT OF APPEAL
DC CIRCUIT

PETITION FOR WRIT OF CERTIORARI

LARRY WELENC
Po Box 4207
Clearwater FL 33758
(727)-687-9344

RECEIVED
DEC 2 9 2020

QUESTIONS PRESENTED FOR REVIEW

1.) Can a US District Court Judge determine that a an excised Document released under
The Freedom of Information Act, 5 U.S.C. § 552, consisting only of a blank sheet of
paper and a page number falls under a FOIA Exemption, without having been informed
of that document’s contents ?

2.) Can the FBI keep an unspecified alleged investigation of a citizen open for 32 years
based on an alleged surveillance photo from 1988 or any other basis or is this a violation
of the Statute of limitations ?

3.) Is a litigant before a US Court District Court entitled to a decision from the Court and
the FBI on Motion for a Declaration that no judge had been approached or has had an exparte communications with the FBI or their attorney justified by an unsubstantiated
claim of National Security before being required to respond to any Motion by the FBI
and their Attorney?

4.) Is the FBI required or should they be required to release exonerating information in a
civil matter, here in a FOIA comlaint, if they are the investigating agency in the matter
to which the exonerating evidence refers?

2

LIST OF PARTIES TO THE PROCEEDINGS IN THE COURT BELOW

Larry Welenc,

Appellant and Petitioner

US Department of Justice,
Federal Bureau of Investigation

Appellee and Respondent

TABLE OF CONTENTS

Question presented for Review

page 2

List of Parties to the Proceedings page 3
Table of Authorities

page 4

Statutes and Authorities

page 4

Index to Appendices

page 5

Opinions Below

page 5

Statement of Jurisdiction

page 5

Statement of Case

pages 6-9

Argument in Support of Petition pages 9-11
Conclusion

Page 11

Appendix

3

TABLE OF AUTHORITIES

CASES

Yonemoto v. VA.No. 10-15180, 2012 U.S. App. LEXIS 1108 (9th Cir.Jan. 18, 2012)
(Berzon,J.) (amended op.)
Harrison v. BOP. No. 07-1543, 2009 WL 1163909 (D.D.C. May 1,2009) (Friedman, J.).
Sussman v. U.S. Marshals Serv..No. 03-610,2009 WL 3068188 (D.D.C. Sept. 25,2009)
(Kennedy, J.)
Batton v. Evers. No. 08-20724,2010 WL 625988 (5th Cir. Feb. 24,2010) (Haynes, J)

Citizens for Resp. & Ethics in Wash, v. DOJ. No. 11-754, 2012 WL 45499 (D.D.C. Jan. 10,
2012) (Kessler, J.)
Knittel v. IRS. No. 07-1213,2009 WL 2163619 (W.D. Tenn. July 20,2009) (Breen, J.)

STATUTES
Rule 11, Certiorari to a United States Court of Appeals before Judgment
5 U.S.C. § 552 The Freedom of Information Act,
28 U.S.C paragraph 2101 (e)
28 U.S.C paragraph 1254.

4

INDEX TO APPENDICES

Appendix A Order of the US District Court dated July 8, 2019
Appendix B: Order of the US District Court dated November 18, 2019
Appendix C: Motion for Declaration with the US District Court of Appeal, filed October
14, 2020
Appendix D: Order of the US District Court of Appeal November 6, 2020

OPINIONS BELOW
Petitioner Larry Welenc respectfully prays that a writ of certiorari issue to review the
judgments below.
Order of the US District Court dated July 8, 2019
Order of the US District Court dated November 18, 2019
Order of the US District Court of Appeal November 6,2020

STATEMENT OF JURISDICTION
The jurisdiction of this court is invoked pursuant to Rule 11. Certiorari to a United
States Court of Appeals before Judgment

5

STATEMENT OF THE CASE

This case stems in part from a case before Judge Reggie Walton in the US District Court
in 2008 the which the Petitioner had motioned for the expungment of an alleged photo of
the Petitioner released in prior FOIA Request with the FBI. The FOIA request was a
general request not seeking any specific documents. The Petitioner based his Motion to
Expunge on the fact that the person in the photo could not be a photo of the Petitioner as
the Petitioner was living in Europe at the time of the photo at the surveillance camera
date stamp and the person in the photo was obviously at least 6 inches shorter than the
Petitioner and had a full beard. The case was dismissed without prejudice for failure to
prosecute though Judge Walton refused to reopen the case when Petitioner was able to
produce additional which had been released through a subsequent FOIA Request. Despite
the case being dismissed “without prejudice” Judge Walton repeatedly refused to reopen
the case

The current case before the court concerns a Petition for Judicial review filed on 2017, on
FOIA Request made in 2015 for all documents on the Petitioner related to his then
contact with the then head of the FBI Legal Unit in Las Vegas Nancy Shuster whom
Plaintiff, whom Petitioner was brought in contact with as a result of his FOIA Request
with the US Department of State in 1995. The FBI responded to the incorrect FOIA
request in the case before this court which Judge Walton determined in his Memorandum
and Opinion “did not matter”. Judge Walton found that the withheld documents fell under
Exemption 5 despite many of those documents consisting only of a blank piece of paper

6

with a page no. Petitioner is submitting one such document here as Exhibit A. It is the
opinion of the Petitioner that the tactic of the FBI redacting entire pages is the result of
FOIA request the Petitioner made around 1995. Both the FBI and the US Department of
State were responding to the same request with the US Department of still filing in the
sections of certain documents excised by the FBI and the FBI filling in the sections of the
certain documents excised by US Department of State.

The FBI through their attorney in his Answer to the Petition tried to get the lower court
case dismissed in part because this was an ongoing investigation and cited the 2008 case
as evidence that the petitioner was trying to relitigate the case. The Motion for Dismissal
was denied. The FBI claimed in it Motion for Summary Affirmance the that the
Petitioner was trying to seek a photo of his own arrest which is both ludicrous since the
Petitioner was trying to have the photo expunged in the 2008 case on the basis that it was
not the Petitioner in the photo , nor was the Plaintiff in the RIO Hotel and Casino during
the month of the photo even if one was to construe the year as 1998 and not 1988 and that
the photo is from the RIO’s Security cameras. The FBI in their Motion to Dismiss with
the lower Court continuously referred to the Declaration or David Hardy, which made
reference to an alleged investigation of the Plaintiff which was used to deny Petitioners
Motion to Expunge the photo. By making this argument in their 2107 the FBI was
admitting that an Investigation had been going on for some 30 years which lies well
above the 5year statute of limitation. Judge Reggie Walton stated in his Memorandum
and Opinion even if the information in the withheld records exonerates the Plaintiff as he
speculates, the FBI need no disclose it if a FOIA Exemption applies. Even if this were

7

true, the FBI could not make reference to the Declaration of David Hardy as if there were
still an ongoing investigation if in fact that investigation had been in fact concluded.
Since the FBI has used the Declaration of Warren Hardy in their Pleadings it must
assume that the investigation is ongoing and in its 32nd year.

It is the Petitioner’s contention that there is no basis for investigation and that the FBI
simply opening up a fictitious investigation based on a fictitious surveillance photo to
keep track of the Plaintiff after his trip to Hungary in 1988 from Vienna Austria during
his 8 and ahalf year residency in Europe. Petitioner did not register with the US
Department of State and the trip was not uneventful, those events having been made
public by the Petitioner on his Facebook page in a series of posts along with a document
released from another FOIA request on the FBI’s attempt to set up an International Police
academy in Budapest Hungary after fall of the Wall, which referred to the seating
arrangement in order “not to kill the goose that laid the golden egg”. Petitioner did appeal
the excising of the information released but except for a few insignificant additional
documents released, the FOIA request was denied.

Petitioner filed a Motion for Declaration on October 10, 2020, Exhibit B, to determine
whether the contents of the documents consisting only of a blank paper with a page
number, were made privy to the Judge in and ex-parte communication and Motion to
have for a ruling on that Motion before Petitioner responded to the Defendant’s motion
for Summary Affirmance... In their Order of November 6, 2020 the Court decided to
decide on the motion simultaneously with the Motion for Summary Affirmance, therefore

8

compelling Petitioner to the Motion respond without knowing whether an ex-parte
communication had actually taking place

ARGUMENT IN SUPPORT OF THIS PETITION
The case is in the public interests for obvious reasons; should the lower court case stand,
the FBI would have a mechanism to thwart any FOIA Request, simply by excising entire
documents except for the page numbers and claiming Exemption 5. It is impossible as
Petitioner stated in his Motion for a Judge to know what is in and excise document
consisting only of a page number unless that Judge had an ex-parte communication the
FBI or their attorney which would be violation of the rules of the court but which a
Judge may allow should the FBI or similar US government allege National Security ,
real, imagined, or simply fabricated to thwart a FOIA Request and continue a fictitious
investigation, which would be a violation of Petitioner’s first Amendment rights.
Recent decisions by the courts have upheld that there has to be a factual basis to
implement FOIA and that the information must be sufficient to make those
determination, Yonemoto v. VA. No. 10-15180, 2012 U.S. Add. LEXIS 1108 (9th Cir.
Jan, 18,2012) (BerzonJ.) (amended op.). Holding: Reversing the district court's
decision that the VA's offer to provide certain emails to plaintiff in an unredacted form
with restrictions on distribution mooted his FOIA claims, and remanding for court to
consider the VA's claims of exemption on those records; Harrison v, BOP, No. 07-1543,
2009 WL 1163909 (D.P.C. May 1,2009) (Friedman. JX As to another of plaintiffs
requests, BOP has failed to provide sufficient justification for its use of exemptions.
Sussman v, U.S. Marshals Serv.. No, 03-610.2009 WL 3068188 (D.D.C. Sept. 25,
9

2009) (Kennedy. J.). "The record submitted does not permit the Court to determine
exactly which exemptions [apply] to which redacted portions of which documents
[plaintiff] challenges. The information submitted by the Marshals Service in its Vaughn
index, together with its declarations, is insufficient to support a determination that the
Marshals Service has justified its nondisclosure decisions.". Citizens for Resp. & Ethics in
Wash, v. DOJ. No. 11-754.2012 WL 45499 (D.D.C. Jan. 10.2012) (Kessler. J.). Holding:
Denying defendants' motion for summary judgment; granting plaintiffs cross-motion for
summary judgment and holding that DOJ cannot assert a categorical denial under Exemptions 6
and 7

In terms of the public interest, the court finds that "the American public has a right

to know about the manner in which its representatives are conducting themselves and whether the
government agency responsible for investigating and, if warranted, prosecuting those
representatives for alleged illegal conduct is doing its job.", Knittel v. IRS, No. 07-1213,2009
WL 2163619 (W.D. Tenn. July 20.2009) fBreen. J.). ”[T]he IRS has submitted no evidence
regarding the alleged privacy interests. In fact, the Defendant has not provided this Court with
any guidance as to the nature of the materials requested or their contents. Without knowing the
general substance of the information for which disclosure is sought the Court is unable to assess
the privacy interests at stake, and therefore is unable to conduct the requisite balancing test."
Barton v. Evers. No. 08-20724.2010 WL 625988 (5th Cir. Feb. 24,2010) (Haynes. J.). The
court finds that the IRS failed to provide a sufficiently detailed description of the documents that
were withheld under this exemption for the court "to meaningfully review the applicability of this
exemption."
A blank piece of paper obviously does meet any criteria to make such determinations
mentioned in the above referenced cases and in terms of the public interest, the American
public has a right to know about the manner in which its public servants are conducting

10

themselves and whether the government agency responsible for investigating and, if warranted,
prosecuting those representatives for alleged illegal conduct is doing its job.

CONCLUSIONS
Should the decision in the lower case be allowed to stand, and it’s reversal in contingent
on the Petitioner pursuing his appeal, which is not granted the FBI have a precedent to
simply thwart FOIA requests by excising entire documents, thus holding them
accountable for their actions and giving them the “carte blanche” conduct unwarranted
investigations.
The Petition for a writ of Certiorari should be granted.

Respectfully submitted,

Dated:

ffc T

11

t

